                            TESTIMONY OF

                         MICHAEL CARROLL,

                   DEPUTY INSPECTOR GENERAL,

        U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                              BEFORE THE

 SUBCOMMITTEE ON NATIONAL SECURITY, HOMELAND DEFENSE,
            AND FOREIGN OPERATIONS OF THE
 HOUSE COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM



    “ASSESSMENT OF THE TRANSITION FROM A MILITARY TO A
              CIVILIAN-LED MISSION IN IRAQ”


                             JUNE 28, 2012




      Chairman Chaffetz and Ranking Member Tierney, I am pleased to

appear before you to testify on behalf of the Office of Inspector General

(OIG) for the U.S. Agency for International Development (USAID). Today,

I would like to share information about our oversight efforts in Iraq, our

observations regarding the progress of USAID programs and activities in
Iraq, and our progress in transitioning to a civilian-led mission.        Our

oversight in Iraq began in 2003 following the ramp-up of USAID programs

in the wake of the fall of Saddam Hussein’s regime. We quickly deployed

auditors and investigators into Iraq, first through frequent and continuous

temporary duty assignments (TDYs) of USAID OIG personnel and later

with the establishment in June 2004 of a USAID OIG in-country office in

Baghdad that included seven auditor and two investigator positions as

USAID reconstruction and stability assistance peaked.

      In recent years, USAID has scaled back its activities in Iraq and

transitioned from a stabilization and reconstruction focus to more traditional

development assistance and has requested $231 million for fiscal year 2013.

Other USAID assistance programs in the region such as those in Jordan and

West Bank/Gaza now receive more assistance funding than those in Iraq.

      As USAID has reduced its programs and activities in Iraq, the OIG

has also shifted resources to address other priorities in the region. However,

due to the continuing risks associated with USAID programs in Iraq we are

maintaining an in-country staff of two auditors and one investigator

supplemented by staff and leadership from our nearby Regional Inspector

General (RIG) office in Cairo.       We currently have three Iraq-related

performance audits and surveys and 23 financial audits in progress. In fiscal


                                    -2-
year 2013, we intend to conduct three performance audits, two reviews, and

five financial audits in Iraq. These are currently planned to include audits of

USAID/Iraq’s Financial Sector Development Program, USAID/Iraq’s

Primary Healthcare Program, USAID/Iraq’s Administrative Reform

Program, and a review of the sustainability of USAID/Iraq’s past activities.

      OIG staff and resources in Iraq support intensive oversight. Drawing

on our strong in-country presence, we have been able to provide

comprehensive performance and financial audit coverage of USAID

programs and implement a vigorous investigative program. From fiscal year

2003 through May 2012, we issued 60 performance audits and reviews

related to USAID activities in Iraq. The resulting reports contained more

than 200 recommendations to improve USAID programs in Iraq, in addition

to identifying nearly $40 million in questioned costs and funds

recommended to be put to better use. Meanwhile, we supervised program-

specific financial audits of over $5 billion that led us to question $255

million in USAID expenditures.       Over that span, we also opened 105

investigations, 45 of which have been referred for prosecution. By the end

of May 2012, our investigative work had produced 13 indictments, 10

convictions or pleas, 27 administrative actions (such as employee

terminations and contract cancellations), 10 suspensions and debarments,


                                     -3-
and over $86 million in savings and recoveries. For every dollar invested in

OIG operations in Iraq, we have returned $4.67 in sustained questioned

costs, funds to be put to better use, and investigative savings and recoveries.

      This work has not been without its challenges. OIG operations were

impacted when the Embassy in Baghdad severely restricted U.S. government

movements during the period coinciding with the departure of the U.S.

military. During the transition period of November 2011 through May 2012,

three of the seven movements we requested in Iraq were denied by the

Embassy due to a lack of available protective security detail resources. We

ultimately were able to conduct site visits where required and there are now

fewer restrictions than in the past on movement both within and outside the

International Zone. We have also supplemented our work with the use of

local audit firms for site visits to mitigate travel restrictions.     Overall,

changes in security conditions following the military transition have not

significantly affected our ability to perform needed oversight work.

      Our investigators in Iraq continue to face challenges finding viable

partners in the Iraqi government with which to coordinate prosecutions. As

USAID continues to shift towards increased host country participation in

development programs, there will be a greater emphasis on local

implementation of USAID programs. For law enforcement, this means a


                                     -4-
greater reliance on local prosecutions. While we have had some limited

success in pursuing local prosecutions, we have not been fully successful in

identifying partners within the Iraqi government to support our investigative

efforts. We have developed a plan to address this and continue to work

towards a resolution.

      Corruption in the public sector continues to be a problem in Iraq. In

2011, Iraq ranked 175th out of 183 countries in the Transparency

International Corruption Perception Index (CPI). In 2010, Iraq ranked 175th

out of 178 countries.

      The U.S. government created two anticorruption entities (the

Inspector General and the Commission on Integrity) within the Government

of Iraq. These are struggling to maintain their existence, better define their

roles vis-à-vis the standing ministries and provincial powers, and to

contribute to stronger rule of law in Iraq. The Council of Ministers is

currently considering the future of the Inspector General and the proper role

of the Commission on Integrity especially as it relates to the judiciary

(specifically the conflict with investigative judges) and the Ministry of

Interior (which similarly has redundant investigative powers). There are

proponents of expanding the training and skills of the Inspector General’s

and the Commission on Integrity’s employees as well as increasing the


                                    -5-
ability of the Government of Iraq ministries to improve transparency through

public reporting. The Board of Supreme Audit, an old and established entity

that is also key to the fight against corruption, would also benefit from

increased training in technical fields.

      U.S. continued support for targeted anti-corruption programs will help

address critical issues that affect the entire system.     The U.S. has a

competitive advantage in providing training, as a high level of regard is

given by the Government of Iraq for the types of governmental investigative,

audit, and internal control mechanisms administered by the U.S.

government.

      According to the USAID mission, the security situation has hampered

its ability to monitor programs. Mission personnel are only occasionally

able to travel to the field for site visits. To address this limitation, the

mission is in the process of hiring and training 25 Iraqi field monitors.

These field monitors report to contracting and agreement officer

representatives and provide additional monitoring capability.

      Other personnel and security challenges have also affected USAID

implementation of its development programs in the post-transition period.

As the Government of Iraq encourages USAID and its implementing

partners to increase their reliance on Iraqi employees, it has become more


                                      -6-
difficult for implementing partners to obtain visas for their expatriate

employees. Meanwhile, the USAID mission has faced increasing delays in

obtaining visas for third-country national personnel. The Iraqi government

is also increasingly wary of foreign private security contractors, many of

whom provide security assistance to USAID implementers.

      USAID program results in Iraq have been mixed and continue to face

monitoring and evaluation issues. With the civilian transition and increasing

focus on development assistance, project sustainability is also a concern.

      OIG audits of Iraq-based programs continue to highlight issues in this

area. In some cases, absence of host-nation support or preparedness to

continue supporting USAID-funded programs resulted in questioned long-

term sustainability of programs and failures to meet program objectives. For

example, in our March 2012 audit of the sustainability of USAID/Iraq

Information Technology (IT) Systems we determined that IT systems valued

at $62.1 million were not completed, not functional when delivered, or not

used by the Government of Iraq as intended. Between 2003 and 2011, the

mission in Iraq funded at least 24 IT systems, totaling $73.2 million, through

awards to various contactors and grantees.       These USAID-financed IT

systems were intended to be delivered to and used by Government of Iraq

entities to allow them to operate more efficiently and effectively. Nearly all


                                     -7-
of these IT programs ended prior to the transition to the civilian-led mission.

In some cases, the awards included IT systems as specific deliverables; in

other cases, the mission implemented programs using IT systems to achieve

broader goals such as increasing transparency and accountability or reducing

fraud and corruption. However, 10 of the 24 IT systems were found not to

have been used as planned because the Government of Iraq either did not

support the systems, the mission’s implementing partners did not deliver

complete or functional systems, USAID stopped funding the systems, or the

Government of Iraq was not prepared to use the systems. Had USAID

employed more cost-sharing approaches in funding the IT projects or

provided more extensive, sustained training, Iraqi government units may

have been more invested in using and maintaining these systems.

      In our July 2010 audit of USAID/Iraq’s implementation of the Iraq

Financial Management Information System (IFMIS), we determined that

IFMIS was implemented without the consent, assessment, or buy-in of the

Government of Iraq. The USAID implementer did not obtain input from the

Iraqi system users to determine best fit, concept design, and users’

requirements and the resulting configuration of IFMIS did not meet the user

requirements of the Iraqi Government Ministry of Finance. Our audit found

that Iraqi system users were disappointed with the insufficient training


                                     -8-
provided by USAID implementers and Iraqi users also identified numerous

functionality issues with the system. The Government of Iraq did not accept

IFMIS in part because it did not successfully perform accounting tasks.

      In other cases, USAID programs did not achieve goals related to

enhancing the capacity for sustainable host-nation systems. For example, in

our March 2012 audit of USAID/Iraq’s Electoral Technical Assistance

Program we found that the program did very little to achieve the main

objective to build capacity for a sustainable electoral system.       To help

strengthen the Iraqi electoral system, USAID entered into a $40 million

cooperative agreement with the International Foundation for Electoral

Systems to implement the Electoral Technical Assistance Program. The

program provided technical assistance to Iraq’s High Electoral Commission

in support of elections conducted in Iraq between January 2005 and

September 2011. After receiving more than 6 years of technical assistance

and support under the program, OIG auditors found that the Electoral

Commission still lacked a reliable voter registration system, permanent staff,

up-to-date computer equipment, plans for training and outreach, financial

transparency,   and   political   independence    –   all   prerequisites   for

sustainability. Moreover, despite the fact that the long-term success of the

Electoral Commission also depends on its ability to prepare Governorate


                                    -9-
Electoral Offices for electoral administration, the program did not develop

sustainable governorate-level operations and instead focused only on the

Electoral Commission’s management of electoral events from headquarters.

      Our November 2011 audit of USAID Community Action Program

activities implemented by International Relief and Development also

highlighted sustainability issues. While the implementing partner effectively

formed community action groups and developed initial community action

plans, completed projects, and used a process for project development, OIG

auditors determined that projects completed under the program did not target

identified, prioritized needs of Iraqi communities. Of the 146 completed

projects we surveyed, 34 percent did not match any needs identified by the

corresponding community and an additional 31 percent did not match the

needs communities identified as top priorities. We also found that USAID’s

decision to accelerate the spending of program funds had negative

consequences for the program. These consequences included a significant

overreliance on supply-type projects (e.g., student desks, office equipment,

or medical supplies), cancelled projects, revisions to many community

action plans, and a concentration of projects in some neighborhoods. The

overreliance on small, supply-type projects instead of community

infrastructure and essential service projects reduced program impact and


                                   - 10 -
sustainability. The dangerous security environment also impacted the field

operations of this program with the assassination of several local Iraqi

council officials with whom the implementing partner had worked closely.

      Looking forward, USAID OIG will continue to provide intensive

oversight to ensure accountability in USAID programs and address key

efforts in sustainability, monitoring, and evaluation. While several of our

recent audits have covered activities in the pre-transition time period, we

have audits in progress that will address the post-military period, including

an audit of USAID monitoring and evaluation programs in Iraq. Project

monitoring and evaluation activities are critical to effective implementation

of development activities. Since security conditions in Iraq continue to

hamper monitoring and evaluation of program activities by mission staff, the

USAID mission uses contract support to supplement its monitoring and

evaluation efforts. The mission recently sought OIG assistance in examining

a current 2-year, $14 million monitoring and evaluation contract to assist it

in determining what type of monitoring and evaluation mechanism it should

have in place in the future.    OIG auditors are currently evaluating the

contractor’s activities with the aim of assessing whether the mission’s use of

the contractor has improved program management and oversight of USAID




                                    - 11 -
programs in Iraq.        Once it is finalized, our audit findings and

recommendations will be made available publicly.

      This audit, which is nearing completion, is a follow-on to a similar

performance audit we completed in 2008.              In the 2008 audit of

USAID/Iraq’s Monitoring and Evaluation Performance Program we found

that the monitoring and evaluation reports were generally timely, relevant to

the programs being reviewed, and useful for performance management.

However, we also determined that the mission could use the results more

effectively by systematically documenting its responses to findings and

recommendations and by granting the USAID/Iraq Program Office authority

to initiate monitoring and evaluation activities. In addition, ensuring that

evaluation reports are shared with implementing partners and that awards

specifically require monitoring and evaluation plans would also enhance the

effectiveness of the plan. We also found in the 2008 audit that the frequency

of monitoring high risk activities should be increased.

      We are also currently conducting a survey of security contractor

services employed by USAID/Iraq contractors and grantees. Measured in

terms of both funding and personnel, security is an increasing challenge in

Iraq. From July 1, 2007, to June 30, 2009, USAID maintained a portfolio of

contracts and grants with 12 implementing partners that, in turn, held 17


                                    - 12 -
subcontracts for private security services in Iraq. According to information

provided by USAID’s implementing partners, these subcontracts were

associated with expenditures of $483 million as of December 31, 2009, or

approximately 23 percent of the implementing partners’ total costs. This

survey will examine differences among the respective security arrangements

and their effects on costs. In addition, we will follow up on significant OIG

recommendations from a related FY 2011 report to ensure that USAID is

providing effective oversight of private security contractors.

      With the resource drawdown of the Special Inspector General for Iraqi

Reconstruction (SIGIR) and transition of its oversight responsibilities to

statutory Inspectors General, I have met with SIGIR leadership to discuss

the future of oversight operations in Iraq. Our new RIG in Cairo and our

field staff in Iraq have also held extensive coordination meetings with their

SIGIR counterparts to ensure continued vigorous oversight coverage of

USAID programs in Iraq going forward. USAID OIG will continue to work

closely with SIGIR during this process to provide for a seamless transition

and continuing levels of appropriate oversight.

      Thank you for this opportunity to address the Subcommittee.

We appreciate your interest in our work and continuing commitment to

effective oversight. I look forward to learning more about your interests and


                                    - 13 -
priorities and would be happy to answer any questions you may have at this

time.




                                  - 14 -
